No,

%jD-ill

3(n m>t
Supreme Court of tfje fHnttefc States
DEBORAH WALTON
Petitioner
v.
FIRST MERCHANTS BANK.
Respondents
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Deborah Walton
P.0 Box 598
Westfield, Indiana 46074
(317) 565-6477

FILED
SEP 0 2 2020
9nPRFEMEFCOURTLURSK_

QUESTIONS PRESENTED
Whether the Appellants 14th Amendment rights, were violated when she was not
afforded the right to respond to the Appellee’s motion for Attorney fees.
Whether the Appellants 14th Amendment rights, were violated after she filed a
timely Appeal with the 7th Circuit. Subsequently when an order was entered
challenging jurisdiction, than the Appellee, filed a motion with the District Court
under Fed. T.R. 58 to delay the Appeal.

i

PARTIES TO THE PROCEEDING
All parties are listed in the caption.

RULE 29.6 STATEMENT
The Respondent First Merchants Bank, is a publicly traded Corporation.

STATEMENT OF RELATED CASES
Deborah Walton v. First Merchants Bank, Southern District of Indiana Docket No.
l:17-cv-1888-JMS-MPB Ended November 25, 2019.
Deborah Walton v. First Merchants Bank, Southern District of Indiana Docket No.
l:17-cv-1888-JMS-MPB Ended January 14, 2020.
Deborah Walton v. First Merchants Bank, Seventh Circuit Court of Appeals Docket
No. 19-3870 and No. 20-1206 Ended July 7, 2020.

ii

TABLE OF CONTENTS
Paaefs)
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDING

ii

RULE 29.6 STATEMENT

i

STATEMENT OF RELATED CASES

i

TABLE OF CONTENTS
TABLE OF AUTHORITIES

mi

OPINIONS BELOW

1

JURISDICTION

2

STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

5

THIS COURT SHOULD GRANT REVIEW OF THE 7th CIRCUIT
COURT OF APPEALS DECISION AFFIRMING THE DISTRICT
COURTS ORDER SANCTIONING THE PETITIONER FOR THE
FOLLOWING REASON: THE 7th CIRCUIT FAILED TO APPLY
PROCEDURAL DUE PROCESS...................................................

5

A. This Court Should Grant Certiorari Since the 7th Circuit Court of
Appeals Affirmed The District Courts Sanction For Not Proving
That The Petitioner Did Not Opt-ln To Overdraft Protection.......

5

B. This Court Should Grant Certiorari Some the 7th Circuit Allowed
The Respondent to Delay The Petitioner’s Appeal To Be Timely
Heard............................................................................................

8

C. This Court Should Grant Certiorari Because The Petitioner’s
Right To Due Process Was Denied When The District Court
Judge Struck The Petitioner’s Response To Respondent’s
Motion For Attorney Fees.......................................................

CONCLUSION

10

17
iii

TABLE OF CONTENTS - Continued
CERTIFICATE OF SERVICE
APPENDIX
Re-hearing en banc at United States Court of Appeals
Seventh Circuit, July 31, 2020.....................................

App. 1

Opinion of the United States Court of Appeals
Seventh Circuit, July 7, 2020..........................

App. 2

Order on motion to Supplement Exhibit A,
Seventh Circuit, August 3, 2020...............

App. 11

Order on Appellee Statement to Stay Appeal,
Seventh Circuit, April 2, 2020.......................

App. 12

Order on Appellee Statement to Stay Appeal.
Seventh Circuit, March 5, 2020...................

App. 14

Order on Consolidate 19-3370 and 20-1206,
Seventh Circuit February 7, 2020.............

App. 15

Order on Granting the Petitioners oversized appendix
Seventh Circuit, January 24, 2020..............................

App. 17

Order on briefing schedule, Seventh Circuit,
January 17, 2020...........................................

App. 18

Order on instructing Plaintiff to inform the Court
if she plans to Appeal the Attorney Fees,
Seventh Circuit, January 15, 2020.......................

App. 20

Order on request for Statues Report,
Seventh Circuit, January 14, 2020..

App. 21

Order on motion for clarification,
Seventh Circuit, January 6, 2020

App. 22
iv

TABLE OF CONTENTS - Continued

Order on Suspending Briefing, Seventh Circuit,
December 27, 2019..................................................

App. 23

Order on instructions to Clerk to reflect Appellant’s payment,
Seventh Circuit, December 5, 2019
App. 24
Order on Preliminary Review and Suspending Appeal
Seventh Circuit, December 3, 2019..... ........................

App. 25

The Southern District of Indiana Order on Findings of Fact
and Conclusions of Law, November 25, 2019
App. 26
The Southern District of Indiana Order on Attorney Fees,
January 14, 2020...................................................................... App. 49
Defendant FMB’s Motion To Extend Time For Appeal..... App. 56
The Southern District of Indiana Order on Defendant
First Merchants Bank Motion To Extend Time For Appeal
December 9, 2019
App. 60
Plaintiff Deborah Walton Objects To Defendant
First Merchants Banks Motion To Extend Time
For Appeal..................................................................

.App. 62

Defendant, FMB’S Motion To Strike Plaintiffs Post
Trial Reply Brief, Or , In The Alternative, Motion
For Leave To File A Response.....................................

App. 66

The Southern District Order to Strike Plaintiff,
Reply To Attorney Fees..........................................

App. 71

Maintenance Form

App. 73

Deborah Walton Testimony

App. 74

TABLE OF AUTHORITIES
CASES

PAGE(s)

Snyder v. Masachusetts, 291 U.S. 97, 105 (1934)

5

Bankers Trust Co. v. Mallis, 435 U.S. 381 (1978)

10

United States v. Indrelunas, 411 U.S. 216 (1973)

10

Badillo v. Central Steel & Wire Co., 717 F.2d at 1164

11

75 Fed. Reg. 9,120 (Mar. 1 2010)

11

Hughes v. Kore of Ind. Enter., Inc., 731 F.3d 672, 674 (7th Cir. 2013)

15

Redwood v. Dobson, 476 F.3d 462, 470 (7th Cir. 2007

15

Khan v. Gallitano, 180 F.3d 829, 837 (7th Cir. 1999)

,...15

Fox v. Vice, 131 S. Ct. 2205, 2211 (2011)

15

Baby Products Antitrust Litigation,708 F.3d 163, 179 (3d Cir.2013)...........

15

Kohen v. Pacific Investment Mgmt., Co., 571 F.3d 672, 678 (7th Cir.2009)

16

Mathews v. Eldridge, 424 U.S. 319, 335 (1976)

17

vi

STATUES:
12 C.F.R. §205.7

3

47 U.S.C. § 227(b)(1)(A)(iii), 27(b)(1)(B)

5

28 U.S.C. § 1291

8

15 U.S.C. §1693m(f)

13

15 U.S.C. §§ 1693m(a)(2)(A)

14

15 U.S.C. §§ 1693m(a)(1)

14

15 U.S.C. §§ 1693m(a)(2)(B)(ii)

14

15 U.S.C. §§ 1693m(a)(3)

15

42 U.S.C. § 1988

15

RULE:
Rule 58.’ Fed. R. App. P. 4(a)(4)(iii)

9

Fed. R. App. P. 42(b)

9

Fed. R. Civ. P. 12(f)

10

Fed R. App. P. 11

11

Local Rule - L.R. 7-1 (g)

11

Fed. R. Civ. P. 54(d) 1

16

vii

Deborah Walton respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Seventh Circuit, and
Remand the case back to the Southern District of Indianan.
♦

OPINIONS BELOW
The Denied Re-hearing en banc at United States Court of Appeals is dated
July 31, 2020 (7th Cir. 2020) is found at Appendix, App 1.
The Opinion of the United States Court of Appeals is dated July 7, 2020 (7th
Cir. 2019) is found at Appendix, App 2.
The Seventh Circuit, Order on motion to supplement Exhibit A, August 3;
2020, is found at Appendix, App 11.
The Seventh Circuit, Order on Appellee Statement to Stay Appeal, April 2,
2020, is found at Appendix, App. 12
The Seventh Circuit, Order on Appellee Statement to Stay Appeal, March 5,
2020, is found at Appendix, App. 14
The Seventh Circuit, Order on Consolidate 19-3370 and 20-1206, February 7.
2020, is found at Appendix, App. 15
The Seventh Circuit, Order on Granting the Petitioners oversized appendix
January 24, 2020, is found at Appendix App. 17
The Seventh Circuit, Order on briefing schedule, January 17, 2020, is found
at Appendix App. 18
The Seventh Circuit, Order on instructing Plaintiff to inform the Court if she
plans to Appeal the Attorney Fees, January 15, 2020, is found at Appendix App. 20

1

The Seventh Circuit, Order on request for Statues Report, January 14, 2020.
is found at Appendix App. 21
The Seventh Circuit, Order on motion for clarification, January 6, 2020, is
found at Appendix App. 22
The Seventh Circuit, Order on Suspending Briefing, December 27, 2019, is
found at Appendix App. 23
The Seventh Circuit, Order on instructions to Clerk to reflect Appellant’s
payment, December 5, 2019, is found at Appendix App. 24
The Seventh Circuit, Order on Preliminary Review and Suspending Appeal
December 3, 2019, is found at Appendix, App. 25
The Southern District of Indiana Order on Findings of Fact and Conclusions
of Law, November 25, 2019 is found at Appendix, App. 26
The Southern District of Indiana Order on Attorney Fees, January 14, 2020
is found at Appendix, App. 49

JURISDICTION
Petitioner seeks review of the decision of the United States Court of Appeals
for the Seventh Circuit entered on July 7, 2020. This Court’s jurisdiction rests on
28 U.S.C. § 1254(1).

2

STATUTORY PROVISIONS INVOLVED
Frank Dodds Act Regulation E
The Frank Dodds Consumer Financial Protection Bureau Act,
Regulation E - Electronic Fund Transfers 12 CFR § 1005 et seq. prohibits
financial institution from assesses a fee or charge on a consumer's account held by
the institution for paying any transaction (including a check or other item) when
the consumer has insufficient or unavailable funds in the account, without the
Consumers affirmative consent. Regulation E, known as Opt-In / Opt-Out.

STATEMENT OF THE CASE
This case derives from the Southern District of Indiana, with two surviving
calms scheduled for Trial by Jury. The Telephone Consumer Protect Act (TCPA), 47
U.S.C. § 227, and Electronic Funds Transfer Act (Regulation E, 12 C.F.R §205.7).
The Petitioner proceeded to litigate her claims pro se, and when all dispositive
motions had been filed, the Petitioner survived summary judgment, hence her case
was set for a Jury Trial.
After the collapse of two settlement conferences, the Petitioner was faced
with litigating her claims at trial. As a pro se litigant, with no trial experience, and
no legal education, the Petitioner retained legal counsel to represent her at trial.
However, months before the Jury Trial was scheduled to take place, the Respondent
motioned the court to waive the Jury Trial and a Bench Trial was granted.

3

For the first time, during the course of over two years of pleadings, the
Respondent raised a frivolous claim argument, during their closing arguments at
trial, accusing the Petitioner of filing a frivolous Regulation E claim. Yet, when the
Respondent submitted their Facts Findings and Conclusion of Law brief, it
contained a motion for attorney fees. The Petitioner’s counsel responded to the
motion for attorney fees, however, the Respondent filed a motion to strike the
response brief, App. 66, and the District Court granted the motion to strike.
App. 71
A judgment was entered against the Petitioner on all claims, so the Petitioner
terminated her Attorney Client relationship, and filed an Appeal on November 26,
2019, under cause number 19-3370, with the Seventh Circuit Court of Appeals.
The Petitioner argued that her right to a Jury Trial and right to Due Process
was violated under the under the 5th, 7th and 14th Amendments. On July 7, 2020,
the Seventh Circuit Affirmed the Due Process Claim, and Remanded the TCPA
claim for further proceedings. The Petitioner then, filed a petition for rehearing en
banc, however, she lacked the votes for a rehearing, and the denial was entered on
July 31, 2020.

4

ARGUMENT
THIS COURT SHOULD GRANT REVIEW OF THE 7th CIRCUIT COURT OF
APPEALS DECISION AFFIRMING THE DISTRICT COURTS ORDER
SANCTIONING THE PETITIONER FOR THE FOLLOWING REASON: THE
7™ CIRCUIT FAILED TO APPLY PROCEDURAL DUE PROCESS.
A. This Court Should Grant Certiorari Since the 7th Circuit Court of
Appeals Affirmed The District Courts Sanction For Not Proving That
The Petitioner Did Not Opt-In To Overdraft Protection.
The Petitioner was not afford due process on four different occasions:
Stating with at the District Court 1) Petitioner was not allowed to respond to the
Respondent’s motion for Attorney Fees, after the Respondent filed a motion to
Strike the Petitioner response. App. 66, and the District Courts entered an Order
App. 71 striking Petitions response. 2) The District court never scheduled a
hearing for the Petitioner to be heard concerning the Attorney Fees awarded. 3)
The Petitioner was not allowed to Oral Argument App. 2 at the 7th Circuit Court of
Appeals, 4) The Petition for Re-Hearing En Banc, was denied. If the Petitioner had,
had the opportunity to point out to both the Southern District of Indiana, and the
Seventh Circuit Court of Appeals, she would have prevailed on the sanction waged
against her. See Snyder v. Masachusetts, 291 U.S. 97, 105 (1934)
The Seventh Circuit failed to follow procedural due process, because they had
already formed their opinion: “No reasonable jury could have found, therefore,
that she did not opt into coverageApp. 2 However, the 7th Cir. Opinion is
incorrect, the Petitioner testified that the Maintenance Form she signed, was for

5

overdraft protection, from her Saving to her Checking account, and that she never
signed an Opt-In Consent Form for Regulation E, because It was not Enacted until
January 19, 2010. The Petitioner’s Maintenance Form was signed October 2, 2008,
prior to January 2010, when Regulation E (Opt-In, Opt-Out) was enacted. App. 73
Therefore; a jury of fact finders, would have heard the Petitioners testimony, and
seen the Regulation E guidelines, along with the Maintenance Form, submitted as
Evidence, would have immediately recognized the discrepancy, therefore; the
documents speak for themselves. If the 7th Circuit would have examined the
Maintenance Form, they would have realized that the Respondent did not submit as
Evidence a Regulation E form to Opt-In to overdraft protection. The 7th Circuit
Judges and the District Court Judge all based their ruling of a frivolous claim, on a
maintenance savings and checking account overdraft form that was signed more
than a year prior to Regulation E, and didn’t even met the Regulation E
requirements. Therefore, the Petitioner did not file a frivolous Regulation E claim.
The Opt-In, Opt-Out effective dates are as follows:
The guidelines for Opt-In / Opt-Out overdraft protection became effective on
January 19, 2010. However, compliance did not become mandatory until July 1,
2010. The Rule applies to new and existing accounts. For accounts opened before
July 1, 2010, financial institutions may not assess any overdraft fee on or after
August 15, 2010, if the consumer has not opted in. For accounts opened on or after
July 1, 2010, financial institutions may not assess any overdraft fee unless and
until the consumer has opted in.

6

When the Petitioner signed the Maintenance Form on October 2, 2008,
more than a year prior to the enactment of Regulation E, Overdraft Opt-In / OptOut protection, there was no possible way she could have Opted-In to First
Merchants Banks overdraft protection. Because it wasn’t even heard of in 2008,
nor is there any Opt-In / Opt-Out Language on the Maintenance Form, and the
document speaks for itself. (First Merchants Bank Maintenance Form), App. 73
and (Petitioners testimony at trial) App. 74 . Nowhere in the record shows the
Petitioner Opted-In to Overdraft protection, therefore; she, did not file a frivolous
complaint under Regulation E. The Judges lack of attention to the details of the
Banks Maintenance Form, has turn out to be a $57,751.00 misstep, emphasis
added.
The Petitioner gleaned from the 7th Circuit Court of Appeals final judgment
order, that they felt it was irrelevant that the Petitioner’s Due Process was
violated, because their ruling virtually weighed on the fact that an overdraft form
was signed, while ignoring the fact that the Maintenance Form was for the sole
purpose of transferring funds from the Petitioners Savings to her Checking
account. In no way was the Maintenance Form an Opt In to overdraft protection
form, under Regulation E. If the Petitioner had, had the opportunity to challenge
the attorney fees, by answering the moving parties allegation, before the attorney
fees were taxed against the Petitioner, it would have been obvious to the District
Court Judge that the Maintenance Form failed to qualify as an Opt In Regulation
E form. (First Merchants Bank Maintenance Form) App. 73 emphasis added.

7

The Supreme Court has made it very clear, that under the 14th Amendment
they will continue to uphold the rights of the people, and that their right to be heard
is a vital part of their due process. Procedural due process is essentially based on
the concept of "fundamental fairness". For example, in 1934, the United States
Supreme Court held that due process is violated "if a practice or rule offends some
principle of justice so rooted in the traditions and conscience of our people as to be
ranked as fundamental". See Snyder v. Masaehusetts, 291 U.S. 97, 105 (1934)
When the Petitioner first heard the phrase Justice Is Blind, in a very naive
way, she believed it, however; what she is experiencing, is Justice took a Blind eye
to the truth. As a cradle Catholic, the most profound homily she ever heard at
Mass, was, “Being unfair with the powers one is blessed with, means that Just, is
to be Powerless”. The profound meaning: Is without the ability to behave
according to what is morally right and fair, emphasis added
B. This Court Should Grant Certiorari Since The 7th Circuit Allowed
The Respondent to Delay the Petitioners Appeal To Be Timely Heard
The Seventh Circuit Conducted A Preliminary Review Of The Petitioners
Case On December 3, 2019, Questioning Jurisdiction by entering the following
Order with instructions:
The Petitioner filed her notice of Appeal on December 2, 2019, and December
3, 2019 an Order from the 7th Circuit was entered citing the following:
A preliminary review of the short record indicates that the order appealed
from may not be a final appealable judgment within the meaning of 28 U.S.C §
1291.
8

A notice of appeal filed before the district court issues its ruling on an
attorneys’ fees matter is ineffective until the order disposing of the attorneys’ fees
motion is entered on the district court’s civil docket “if the district court extends the
time to appeal under Rule 58.’ Fed. R. App. P. 4(a)(4)(iii).
In the present case, the district court resolved the merits of plaintiffs case,
but stated that ‘Final judgment shall issue after the attorneys’ fee issue is resolved.”
As such this appeal may be premature, because it appears that the district court
has not resolved the attorneys’ fees matter and entered its order on the district
court’s civil docket.
Accordingly,
IT IS ORDERED that both Petitioner and Respondent file, on or before
December 17, 2019, a brief memorandum stating why this appeal should not be
STAYED pending the entry of the order disposing of the attorneys’ fee matter. A
motion for voluntary dismissal by Petitioner pursuant to Fed. R. App. P. 42(b) will
satisfy this requirement. Briefing shall be SUSPENDED pending further court
order. App. 25
The Respondent filed a motion with the District Court under rule 58,
requesting an extension of time to file an Appeal, on December 5, 2019, App. 56,
and on December 9, 2019, App. 60, the motion was Granted. When the Petitioner
checked the docket she saw the motion, and the Order by the district court, so she
immediately filed an objection, at App. 62, and also submitted her objection to the
7th Circuit, and her response to the courts December 3, 2019 Order.

9

The Respondent was without standings to file an extension of time on the
Petitioner’s Appeal, and even if they had standings, the motion was untimely,
according to the U.S. Supreme Court. See Bankers Trust Co. v. Mallis, 435 U.S. 381
(1978) (per curiam); United States v. Indrelunas, 411 U.S. 216 (1973) (per curiam);
C. This Court Should Grant Certiorari Because the Petitioners Right To
Due Process Was Denied When The District Court Judge Struck The
Petitioner’s Response To Respondent’s Motion For Attorney Fees
When the Respondent filed their Finding and Conclusions of Law brief, they
requested Attorney fees, which was premature, however the Petitioner should have
been allowed the opportunity to respond to the Finding and Conclusion of Law brief,
of which the Petitioner did do. The traditional way of dealing with motions to
recover Attorney Fee’s, are usually made after you have prevailed on the case. No
written motion or pleading was filed by the Respondent in advance of the Court’s
deadline for each party to simultaneously submit proposed findings of fact and
conclusions of law. It would be impossible for the Petitioner to address the merits of
the Respondent’s petition since it had not been filed. When the Petitioner
attempted to file a response to the Respondent’s motion for Attorney Fee’s
consistent with the Local Rules, the Respondent moved to strike the Petitioners
response. The Court again did not allow the Petitioner an opportunity to respond
to the Respondent’s motion to strike, when the Petitioner had 21 days to respond in
accordance to Fed T.R. 12(f). Yet again the Court prematurely granted the
Respondent’s motion, without allowing the Petitioner her right to be heard, which is
denying the Petitioner’s right to due process. Therefore; the Federal Rules, also

10

allows any party that objects to attorney fees, the opportunity to argue against
them, and the Southern District of Indiana Local Rule - L.R. 7-1(g), states that
when attorney fees are sought under Rule 11, that the Rule 11 argument would
have to be raised prior to a motion for attorney fees. However, this was not the
case, and the Conclusion of Law Order awarded attorney fees to the Respondent,
after striking the Petitioner’s brief objecting to the attorney fees, and without
allowing the Petitioner a hearing to object to the amount of Attorney fees. How the
Petitioner was harmed, is without saying, her rights were taken away from her, and
she was not afforded due process.
In the Seventh Circuit, attorney fees taxed to a plaintiff generally are limited
to where the “Plaintiffs conduct was abusive, or merely a disguised effort to harass
or embarrass the Defendant” Badillo v. Central Steel & Wire Co., 717 F.2d at 1164.
The tests are: (1) where the plaintiff proceeds in the face of an unambiguous
adverse previous ruling and (2) where the plaintiff is aware with some degree of
certainty of the factual or legal infirmity of his claim. ID. At 1163-64. The record
will show that the Petitioner did not file her complaint to harass the Respondent,
yet her complaint, and the record, will show that the Petitioner’s Regulation E is
with merit. When the Board that oversee Regulation E, published a proposed rule
amending Regulation E and the official staff commentary to clarify certain aspects
of the Rule See 75 Fed. Reg. 9,120 (Mar.l 2010). “Among other things, the proposed
rule would clarify that the fee prohibition encompasses not only overdraft fees
assessed on a per-transaction basis, but also any daily, sustained, or continuous

11

overdraft fees, negative balance fees, and similar fees and charges.” emphasis
added
The Respondent filed their Post Trial Brief, raising the argument that the
Petitioner filed a baseless Regulation E Claim, however; they failed to raise their
baseless argument on several occasions. 1) When Respondent Responded to the
Petitioners Complaint, 2) Before the time expired for the Respondent to file a
motion to Dismiss, 3) When Respondent filed their dispositive motions, 4) When
Respondent’s counsel Cross Examined the Petitioner at Trial, and when 5)
Respondent Cross Examined FMB Witness. The only time the Respondent brought
up the issue of the Petitioner filing a frivolous Regulation E Claim, is in their
closing argument. Therefore, the Respondent’s allegations that the Petitioner filed
a frivolous claim is untimely, and fails to apply with the Southern District of
Indiana’s Local Rules concerning Sanctions for a Bad Faith Claims. The Local Rules
are very clear and unambiguous. See IN SD-LR 7-1 (g) The Respondent failed to
file a Rule 11 in accordance with LR-71(g).

emphasis added.

The District Court wrote in the Summary Judgment Order the following:
“The following claims will proceed to trial: (1) the Regulation E claim
(Count II) as it relates to the legality of overdraft charges for the FMB
Personal Accounts (i.e., whether Ms. Walton opted into overdraft
protection)
Petitioner proved at Trial that she never opted in to overdraft protection, and the
Respondent was unsuccessful in proving that Petitioner did. App. 74. The record

12

will show that the Respondent submitted a Maintenance Form as the Regulation E
Opt-In / Opt-Out form, App. 73 and the Petitioner testified to the contrary.
When the Petitioner followed the instructions of the Summary Judgment
Order, she did by proving her claims at trial. Therefore, the Petitioner should not
be assessed Attorney fees, because no attorney fees are allowed as sanctions for
Regulation E, since no Rule 11 letter was sent under LR 7-1(g). emphasis added.
Not only did FMB not follow the Local Rules, they have also failed to raise any
legitimate argument as to how the Petitioner’s Regulation E Claim was frivolous,
yet the Respondent did allege its actions were unintentional and simply a mistake.
However; the Respondent’s request for Attorney Fees claiming the Petitioner has
pursued her Regulation E claim in bad faith and for purposes to harassment under
15 U.S.C. § 1693m(f). Yet there is not much in the way of useful precedent to guide
the Court in assessing attorney fees as requested under 15 U.S.C. § 1693m(f).
However, the standard incorporated into this statute has been utilized in other
settings.
In the Seventh Circuit, attorney fees taxed to a plaintiff generally are limited
to where the “Plaintiffs conduct was abusive, or merely a disguised effort to harass
or embarrass the Defendant” Badillo v. Central Steel & Wire Co., 717 F.2d at 1164.
The tests are: (1) where the plaintiff proceeds in the face of an unambiguous
adverse previous ruling and (2) where the plaintiff is aware with some degree of
certainty of the factual or legal infirmity of his claim. ID. At 1163-64. Given the
course of proceedings in this matter and the breadth of the factual and legal issues

13

in this case, Petitioner has not pursued an action under the TCPA or Regulation E
in the face of unambiguous rulings by the District Court, Further, Petitioner’s
claims did not merit Summary Judgment in favor of the Respondent.
Had Petitioner’s claims truly been frivolous, this issue would have been
disposed of by a Motion to Dismiss or at a minimum, a Motion for Summary
Judgment. Petitioner’s reliance on legal authority, which she believed was
controlling, even if mistaken, is no grounds for the imposition of attorney fees.
Every case has winners and losers. Petitioner’s position in this litigation does not
justify the imposition of attorney fees, when the record clearly show, the Petitioners,
Regulation E Claim is with merit, and the record also shows that, emphasis added.
Petitioner brought her claim for violation of Regulation E, for which the
relevant statute limits an award to One Thousand Dollars ($1,000.00) for each
violation. A claim, by Respondent’s Bank, of attorneys’ fees in the amount of FiftySeven Thousand Seven Hundred Fifty One Dollars ($57,751.00) grossly exceeds the
potential claim, and does not justify three (3) attorneys for preparation.
A plaintiff in an individual suit who proves a violation of the Act is entitled to
his actual damages, if any, or to statutory damages of at least $100 but not more
than $1000. 15 U.S.C. §§ 1693m(a)(l), (a)(2)(A). If a class action is filed instead,
and is successful, the class is entitled to “such amount [of damages] as the court
may allow,” but only up to the lesser of $500,000 or 1 percent of the defendant's net
worth. § 1693m(a)(2)(B)(ii). No minimum amount of damages to which a class
member is entitled is specified, in contrast to the $100 minimum award to the

14

plaintiff in a successful individual suit. § 1693m(a)(2)(B)(i). In both types of case
(individual and class action) the court is to award “a reasonable attorney's fee” if the
suit is successful, paid of course by the defendant. § 1693m(a)(3). Hughes v. Kore of
Ind. Enter., Inc., 731 F.3d 672, 674 (7th Cir. 2013).
In other contexts, a defendant who seeks fees for the costs of defense "has a
tough row to hoe." Redwood v. Dobson, 476 F.3d 462, 470 (7th Cir. 2007)
(discussing award of fees under 42 U.S.C. § 1988). The Seventh Circuit Court of
Appeals has cautioned that "[t]here is a significant difference between making a
weak argument with little chance of success .. . and making a frivolous argument
with no chance of success." Khan v. Gallitano, 180 F.3d 829, 837 (7th Cir. 1999). In
the event a plaintiff has asserted both frivolous and non-frivolous claims, "a court
may grant reasonable fees to the defendant. . . , but only for costs that the
defendant would not have incurred but for the frivolous claims." Fox v. Vice, 131 S.
Ct. 2205, 2211 (2011).
The district court must be careful not to allow the litigation expenditure tail
to wag the remedy dog. In re Baby Products Antitrust Litigation,708 F.3d 163, 179
(3d Cir.2013). In Kore, the Seventh Circuit cautioned against the threat of an
award of huge fees that could induce a small defendant to “throw in the towel”,
agreeing to a settlement favorable to the class even if the defendant has an
excellent defense. 731 F.3d at 678. “When the potential liability created by a
lawsuit is very great, even though the probability that the plaintiff will succeed in
establishing liability is slight, the defendant will be under pressure to settle rather

15

>

t

V

i

J

r

i

.*•

\

i

f':

‘

<

*

j

i

»•

>

\
3

-x; %

than to bet the company, even if the betting odds are good.” Id., citing to Kohen v.
Pacific Investment Mgmt., Co., 571 F.3d 672, 678 (7th Cir.2009). The converse is no
less true. Under Regulation E the “maximum statutory damages [are] $100 to
$1000 per individual plaintiff. ” 731 F.3d at 678. Here, in the face of three counts,
each with a total maximum recovery of One Thousand Dollars ($1,000.00),
Defendant seeks attorney fees for three (3) attorneys in an amount some twenty
(20) times Petitioner’s total possible recovery. This is grossly unreasonable and
would have a chilling effect on other plaintiffs who might seek redress in our
Courts.
This court should really that a close look at how the Respondents legal
counsels were able to bill $57,751.00 amongst the three Attorney’s for research on
Regulation E - Electronic Fund Transfers 12 CFR § 1005 et seq., and not one
of them noticed that the Maintenance Form was dated October 2, 2008, which did
not contain any Opt-In / Opt-Out language, and was dated prior to the enactment of
January 19, 2010. emphasis added
The Supreme Court has formulated a balancing test to determine the rigor
with which the requirements of procedural due process should be applied to a
particular deprivation, for the obvious reason that mandating such requirements in
the most expansive way for even the most minor deprivations would bring the
machinery of government to a halt. The Court set out the test as follows:
"|T]dentification of the specific dictates of due process generally requires
consideration of three distinct factors: first, the private interest that will be affected

16

by the official action; second, the risk of an erroneous deprivation of such interest
through the procedures used, and the probable value, if any, of additional or
substitute procedural safeguards; and, finally, the Government's interest, including
the function involved and the fiscal and administrative burdens that the additional
or substitute procedural requirement would entail." See Mathews v. Eldridge, 424
U.S. 319, 335 (1976).

CONCLUSION
Petitioners respectfully request that this Court remand the case back to the
district court to be included, in the upcoming Jury Trial that will held on the
pending TCPA claim in 2021.
Dated: September 2, 2020

Respectfully submitted,

l
Deborah Walton, pro se
P.O. Box 598, Westfield IN 46074
317-565-6477

17

